                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A02080040                                                                 Page 1 of 1



      In November 2001, we received an allegation that a junior faculty member' plagiarized text from
      a successful NSF proposal2into his own proposal. We asked the junior faculty member how he
      obtained the proposal, but he declined to identify his source. The university committee that
      conducted the ensuing investigation pursued this issue without success. We opened the matter for
      separate inquiry on August 16,2002.

      The review record indicated that a ~rofesso?in the junior faculty member's department had
      served on a panel that reviewed the source proposal. We interviewed the Professor, who admitted
      having given the proposal to the junior colleague to serve as a model of a successful NSF
      proposal. The Professor expressed great remorse and promised never again to violate the
      confidentiality of NSF's merit preview process. In a strongly-worded letter, we reminded the
      Professor of reviewers' obligation to keep proposals confidential.

      This case is closed and no further action will be taken.




      ' [redacted]
        [redacted]
        [redacted]


                         Agent                   Attorney            Supervisor                AIGI

  Sign / date

                                                                                               OIG-02-2
